HHS/OIG, Audit - "Indian Health Services Resolution of Audit
Recommendations," (A-07-06-03077)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Indian Health Services Resolution of Audit
Recommendations," (A-07-06-03077)
March 9, 2007
Complete Text of Report is available in PDF format (517 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the Indian Health Service (IHS) had (1) resolved all audit recommendations as of December 31, 2005, and (2) resolved audit recommendations in a timely manner during calendar years (CY) 2003–2005.
As of December 31, 2005, IHS had not resolved 6,653 audit recommendations, of which 94 percent were past due for resolution. During CYs 2003–2005, IHS resolved 2,840 of the 9,493 audit recommendations that were outstanding during this period. However, it did not resolve 2,727 of the 2,840 recommendations within the required 6-month period.
We recommended that IHS (1) resolve the backlog of outstanding audit recommendations and (2) resolve all audit recommendations within 6 months of receiving the audit reports as required. IHS concurred with both recommendations.